Evaluation of Hazard Complaint Handling
in MSHA's Office of Metal and Nonmetal
         Mine Safety and Health




 Mine Safety And Health Administration
   ___________________________________




                               REPORT NO.: 2E-06-620-0001
                              DATE ISSUED: MARCH 29, 2001
                                                  TABLE OF CONTENTS



ACRONYMS AND GLOSSARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . iii

BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

PURPOSE AND METHODOLOGY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

FINDINGS AND RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

          A. MSHA Personnel did not Follow Hazard Complaint Handling and
             Inspection Policies and Procedures Regarding the ASARCO Mission Mine . . . . . . . 5

          B. Hazard Complaint Handling Procedures
             and Practices are not Consistent . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

         C.     MSHA’s Policy and Guidelines on Hazard Complaint Handling Need
                to be Updated. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17

APPENDICES

          A. July 31, 2000 Memorandum from MSHA’s Assistant Secretary
             to all MSHA Employees Regarding Complaint Handling . . . . . . . . . . . . . . . . . . . . . 21

          B. Agency Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23




                                                                     i
                                       ACRONYMS AND
                                         GLOSSARY


                                            ACRONYMS

   FY              Fiscal Year

   MSHA            Mine Safety and Health Administration

   M/NM            Metal and Nonmetal

   OIG             Office of Inspector General

   POV             Pattern of Violation



                                             GLOSSARY


miner:                           Any individual working in a coal or other mine.

imminent danger:                 Existence of any condition or practice in a coal or other mine which
                                 could reasonably be expected to cause death or serious physical
                                 harm before such condition or practice can be abated.

representative of miner:         Any person or organization which represents two or more miners at
                                 a coal or other mine for the purposes of the Act, and who is
                                 registered with the appropriate MSHA district.

stope:                           An underground excavation (usually steplike) for the removal of
                                 ore that is formed as the ore is mined in successive layers.

code-a-phone call:               Hazard complaint called into MSHA headquarters on the national
                                 toll-free (1-800) telephone number and referred to the appropriate
                                 district for complaint investigation.

103(g):                          Section of Mine Act which specifies conditions of notification under
                                 which a miner or representative shall have (1) a right to obtain an
                                 immediate inspection and (2) a right to informal review of refusal to
                                 issue a citation with respect to alleged violation.



                                                   ii
                                        EXECUTIVE
                                        SUMMARY

From January through September 1999, six written and verbal hazard complaints were lodged with
the Mine Safety and Health Administration’s (MSHA) Mesa field office. Five of the complaints
were established to have been lodged by a miner’s grown daughter and a family friend, alleging
unsafe conditions at the ASARCO Mission Mine. An accident subsequently occurred at the mine
leaving the aforementioned miner dead and two of his colleagues permanently disabled.

MSHA, in partnership with the American mining community, works to eliminate fatalities, reduce
the frequency and severity of accidents, and minimize health hazards associated with the mining
industry in accordance with the Federal Mine Safety and Health Act of 1977 (Mine Act).

In August 2000, the Secretary of Labor requested the Office of Inspector General to review
MSHA’s activities surrounding the ASARCO Mission Mine accident, including whether:
(1) MSHA had adequate procedures and policies in place to ensure compliance with the Mine Act,
(2) those policies and procedures were followed by MSHA personnel, and (3) any necessary
corrective actions have been taken.

 RESULTS OF EVALUATION

During our evaluation, we found that MSHA’s Division of Metal/Nonmetal can be more effective
in responding to hazard complaints by improving the intake, management, tracking, and analysis of
complaints. While MSHA has already implemented changes in complaint handling since the fatal
accident of January 2000, the further development of a more efficient and systematic complaint
system is needed. The following findings identify our areas of concern.

FINDING A - MSHA Personnel Did Not Follow Hazard Complaint Handling and
            Inspection Policies and Procedures Regarding the ASARCO Mission Mine

Our evaluation determined that the MSHA Mesa field office supervisor and mine inspector did not
follow various MSHA policies and procedures for at least six hazard complaints received from
January through September 1999. Additionally, the inspection actions in response to these
complaints were not conducted in a prompt and thorough manner. Subsequently, an accident
occurred at the ASARCO Mission Mine which left one miner dead and two others permanently
disabled.

FINDING B - Hazard Complaint Handling Procedures and Practices Are Not Consistent

Hazard complaint handling procedures and practices lack uniformity. This lack of uniformity is
evidenced in the following areas: (1) hazard complaint intake and documentation procedures
across districts and field offices, (2) complaint analysis as a management tool,
(3) implementation of “best practice” procedures, and (4) nationwide training on hazard complaint
procedures.



                                               iii
Finding C - MSHA’s Policies and Guidelines on the Enforcement
             of the Mine Safety Act Need to Be Updated

Differences exist between the Mine Act and various MSHA policies and guidelines which
interpret the Act and its accompanying regulations. These inconsistencies result in complaint
handling practices frequently differing according to the interpretations of the field office
supervisors and mine inspectors.

  RECOMMENDATIONS

We recommend that MSHA take the following actions to improve the intake, management, tracking,
and analysis of complaints. A more effective complaint process not only ensures greater
accountability and public confidence but also would allow MSHA to enhance inspection activity.

Ultimately, we believe implementation of our recommendations will reduce the likelihood of the
recurrence of hazard complaint handling and inspection actions similar to those surrounding the
ASARCO Mission Mine accident.

Therefore, MSHA should:

   (1)   standardize and mandate the use of hazardous complaint handling intake,
         inspection and reporting forms.

   (2)   nationally adopt “best practices” currently used in certain districts.

   (3)   update and implement hazard complaint procedures to require that the mine file
         be reviewed by field office supervisors and mine inspectors upon receipt of a
         hazard complaint.

   (4) develop a complaint analysis system to:
        a) capture all complaints,
        b) specifically track or accurately account for complaints, and
        c) follow up on complaints to ensure that appropriate corrective action has
           been taken.

   (5) further develop and update classroom training for new mine inspectors, and
       implement hazard complaint handling refresher courses for all journeymen mine
       inspectors, and for all MSHA personnel who receive hazard complaints.

   (6) reconcile inconsistent language on complaint handling found between the various
       MSHA guidelines in accordance with the July 2000 directive.

   (7) develop guidelines for district management’s approval or disapproval of

                                            iv
        proposed actions on hazard complaints outside of MSHA’s jurisdiction and
        hazard complaints deemed frivolous.

   (8) establish a policy on whether and when to incorporate hazard complaints into
       regular inspections.



 AGENCY RESPONSE AND OIG CONCLUSION

In response to OIG’s official draft report, MSHA generally agreed with our findings and
recommendations. MSHA provided suggested clarifications and modifications which are
addressed in the findings and recommendations section of this report. As a result of corrective
actions planned by MSHA, we consider all eight recommendations to be resolved. The
recommendations will be closed after those corrective actions are completed. The agency’s
complete response is found in Appendix B.




                                               v
                                       BACKGROUND

MSHA, in partnership with the American mining community, works to eliminate fatalities, reduce
the frequency and severity of accidents, and minimize health hazards associated with the mining
industry in accordance with the Federal Mine Safety and Health Act of 1977 (Mine Act). The
Mine Act requires MSHA to inspect every underground mine four times annually and all surface
mines two times annually to determine compliance with Federal safety and health regulations.

On January 31, 2000, an accident occurred at the ASARCO Mission Mine (an underground mine)
in Pima County, Arizona, in which a miner with 37 years’ experience was killed by a 9-ton slab of
falling copper ore. The two other miners present in the area were critically injured by the rock
fall.

Six Hazard Complaints Were Lodged Prior to the Accident

Prior to the accident, six written and verbal hazard complaints were lodged with MSHA’s Mesa
field office. The five verbal hazard complaints were lodged by that miner’s grown daughter and a
family friend and included charges of inadequate ground support, roof bolting and ventilation.

The first complaint, a letter dated January 25, 1999, was signed by “a concerned worker for safety
of all”, and was received by MSHA’s Mesa field office supervisor. The letter outlined specific
complaints against ASARCO Mission Mine regarding inadequate ventilation, ground support, roof
bolting, and the company practice of barricading stopes before the inspector’s arrival. The Mesa
field office supervisor did not assign the complaint to an MSHA inspector until six weeks later,
for inclusion in a regular inspection. The inspector issued no citations.

The miner’s daughter subsequently called the MSHA supervisor three times, beginning in May
1999. She did not identify herself or her father for fear of company retaliation. The miner’s
daughter stated that she requested that underground heat, bolting, ventilation and oxygen levels at
the mine be inspected. She also reported to the Mesa field office supervisor that employees were
being retaliated against for complaining about mine conditions.

When the miner’s daughter felt that her complaints were being ignored by the Mesa field office
supervisor, she enlisted the help of a family friend, who stated that he called the supervisor twice
with the same allegations. After the last call on September 22, the field office supervisor orally
passed the complaint on to the same inspector who had conducted the March 1999 inspection.
Five days later (September 27), the inspector once again conducted a complaint investigation
during the course of an already scheduled regular inspection, resulting in one citation for
hazardous conditions (loose rock). A subsequent regularly scheduled inspection conducted in
November by another mine inspector resulted in no citations.




                                                  1
Steps Taken By MSHA After the Accident

Beginning on February 1, 2000, a team of accident investigators from MSHA investigated the facts
and conditions surrounding the accident at the ASARCO Mission Mine. Their inspection resulted
in one citation and three orders issued for failure to correct hazardous ground conditions or to
examine for loose ground conditions; failure to replace previously installed ground support; and
failure of miners to wear safety belts while working.

In the year 2000 after the accident, MSHA issued a total of seventeen citations related to some of
the very same allegations contained in the six hazard complaints at Mission Mine. In 1999, one
citation was issued in the previous year related to the hazard complaints.

An internal investigation conducted by MSHA (dated March 7, 2000) concluded that legitimate
complaints were received but were not promptly investigated or properly documented. The
investigation also determined that the Mesa field office supervisor failed to ensure that all
complaints were handled in accordance with policy and Metal/Nonmetal procedures in place at
the time of the complaints.

During May 2000, MSHA’s Assistant Secretary and the Administrator for Metal/Nonmetal visited
the Mesa field office to underscore the importance of responding to complaints immediately. On
July 31, 2000, the Assistant Secretary issued a memorandum to all MSHA employees directing
them that all complaints are to be investigated immediately irrespective of whether an official
complaint was filed, and regardless of the source of the complaint. (See Appendix A.)




                                                 2
                                      PURPOSE AND
                                     METHODOLOGY

On August 10, 2000, the Secretary of Labor requested the Office of Inspector General (OIG) to
review MSHA’s activities surrounding the January 31, 2000 accident at ASARCO Mission Mine
in Pima County, Arizona. Specifically, the Secretary requested that the OIG:

            “Review the events that occurred both before and after the accident,
            including whether MSHA had adequate procedures and policies in
            place to ensure compliance with the requirements of the Mine Safety
            Act, whether those policies and procedures were followed by MSHA
            personnel, and if not, whether corrective actions have been taken.”

    PURPOSE

Our evaluation assessed the effectiveness of MSHA’s complaint handling both prior and
subsequent to the January 31, 2000 accident at the ASARCO Mission Mine which left one miner
dead and two others permanently disabled. We reviewed complaint handling at the Mesa, Arizona
field office, six Metal-Nonmetal district offices, and MSHA headquarters, in the following areas:

•    whether MSHA policies and procedures were followed by MSHA personnel at the Mesa Field
     Office, and the adequacy of any corrective actions taken;

•    whether and how effectively MSHA policies and procedures are followed by MSHA
     personnel nationwide; and,

•    the adequacy of MSHA policies and procedures to ensure compliance with the requirements of
     the Mine Safety Act.

    METHODOLOGY

We conducted our fieldwork on site at the MSHA National office in Arlington, Virginia; the Rocky
Mountain District office; and the Denver, Colorado and Mesa, Arizona field offices with mine
inspectors, field and district supervisors, and other managerial, technical and professional staff
members. Our evaluation involved telephone and in-person interviews with the other five district
and assistant district managers. MSHA’s Directorate of Program Evaluation and Information
Resources provided us with data on hazard complaint and inspection files from their Teradata
database and MSHA’s Metal/Nonmetal database. We reviewed a judgmental sample of actual
complaint and inspection files in the Rocky Mountain district, including the Mesa field office, for
the period from 1997 - 2000. Our review included related MSHA documents, such as policy and
procedures, inspection and training manuals, handbooks, directives, and memoranda related to
hazard complaint handling.

                                                3
The detail of events surrounding the ASARCO Mission Mine fatal accident was taken from the
following: court depositions of MSHA inspectors; regular inspection files including field notes; a
fatality report surrounding the accident; and, an MSHA internal investigation report conducted by
an assistant district manager outside the Rocky Mountain district.

We conducted our evaluation in accordance with the Quality Standards for Inspections published
by the President’s Council on Integrity and Efficiency. A meeting was held on January 25, 2001,
with MSHA’s Division of Metal/Nonmetal to discuss our findings.




                                                4
                          FINDINGS AND RECOMMENDATIONS


 Finding A - MSHA Personnel Did Not Follow Hazard Complaint Handling and
             Inspection Policies and Procedures Regarding the ASARCO Mission Mine

Our evaluation determined that the MSHA Mesa field office supervisor and mine inspector did not
follow various MSHA policies and procedures for at least six hazard complaints received from
January through September 1999. Additionally, the inspection actions in response to these
complaints were not conducted in a prompt and thorough manner. Subsequently, an accident
occurred on January 31, 2000 at the ASARCO Mission Mine which left one miner dead and two
others permanently disabled.

Hazard Complaint Handling

We found that MSHA’s Mesa field office supervisor did not effectively follow two components of
hazard complaint policies and procedures in relation to the ASARCO Mission Mine hazard
complaints:

   1.   Determination of Who May File a Complaint
   2.   Determination of Imminent Danger or Health and Safety Violation

We determined that MSHA’s mine inspector assigned to investigate the complaints violated
MSHA policy in the following area:

   3.   Protecting Miner Confidentiality

We also found that the inspection actions in response to the hazard complaint allegations were not
conducted in a prompt and thorough manner.

1. Determination of Who May File a Complaint

We believe that the Mesa field office supervisor improperly determined that the six complaints
received were not valid hazard complaints.

During the period January through September 1999, a total of six hazard complaints (both written
and verbal) were received by MSHA’s Mesa field office supervisor. Five of these complaints
were later established by MSHA to be lodged by the deceased miner’s daughter and a family
friend. The anonymous complaints requested that underground heat, roof bolting, ventilation and
oxygen levels at the mine be inspected. These complaints alleged conditions similar to those that
resulted in the miner’s death.

According to MSHA’s March 7, 2000 internal investigation, the Mesa field office supervisor
evaluated the complaints and made the determination that these complaints were not valid because
the person(s) did not identify themselves. Moreover, the mine inspector stated in sworn testimony

                                                5
that both he and the field office supervisor believed these were not valid complaints because the
verbal complaints received by the field office supervisor were not specific enough.

The Mesa field office supervisor stated that he was acting in accordance with Section 103(g) of
the Mine Act which stipulates that for official hazard complaints to be registered with MSHA, the
notice shall be provided in writing and signed by a representative of miners or a miner.

        “Any such notice shall be reduced to writing, signed by the representative of the
        miners or by the miner, and a copy...provided the operator or his agent no later
        than at the time of inspection, except that the operator or his agent shall be
        notified forthwith if the complaint indicates that an imminent danger exists.” –
        Federal Mine Safety and Health Act of 1977, section 103(g)(1).

As a result of making this determination, the field office supervisor did not document these
complaints and subsequently discarded all related notes.

We believe that the specific allegations of inadequate ventilation, ground support, and improper
roof bolting were valid complaints in accordance with MSHA policies and procedures. While the
Mine Act is specific about the requirements of a formal hazard complaint, MSHA has further
procedures for hazard complaint handling:

        “. . . Many times, complaints concerning hazardous conditions do not meet the
        technical requirements of Section 103(g). The health and safety of miners are
        best served by examining all notifications of the possible existence of hazardous
        conditions, even though a specific complaint may not strictly adhere to these
        requirements. Accordingly, all complaints of alleged hazards . . . must be
        evaluated. If appropriate, inspection steps must then be taken.” – MSHA
        General Inspection Procedures Handbook, p. 27, dated April 1989.

We concluded that the field office supervisor did not effectively evaluate the complaints in
determining a course of action. We also determined that he did not act prudently in failing to
document the complaints.

2. Determination of Imminent Danger or Health and Safety Violation

MSHA policies stipulate procedures for a miner or miner’s representative to request an immediate
mine inspection if an imminent danger exists. The Mesa field office supervisor stated that the
complaints he received did not meet the threshold test of “imminent danger,” and that it was
indeterminable where the alleged hazardous conditions were located in the mine. Therefore, at no
time did the Mesa field office supervisor assign an inspector to conduct an immediate complaint
inspection separate from and prior to regularly scheduled inspections.

We believe that the specific allegations of inadequate ventilation, ground support, and improper
roof bolting described serious hazards and merited a complete evaluation and prompt complaint
inspection separate from and prior to regularly scheduled inspections. We reached this conclusion

                                                   6
based on our review of MSHA documents and through interviews with MSHA district supervisors
and managerial and technical staff at MSHA headquarters.

Furthermore, the Mesa field office supervisor could have taken additional steps before determining
that the hazard complaints received posed no threat of “imminent danger” or other serious hazard.
There was information available in the ASARCO Mission Mine file maintained at the Mesa office
which indicated that, in November 1997, MSHA’s Safety and Health Technology Center’s Roof
Control Division issued a report on its evaluation of ground support and mining methods at the
ASARCO Mission Mine. The report identified weaknesses in the areas of scaling, roof bolting and
split-set stabilizers. These issues were similar to some of the same allegations contained in the
complaints received by the Mesa field office supervisor.

Despite the fact that the information from the November 1997 report was contained in the ASARCO
Mission Mine file kept in the Mesa office, we found no indication that the Mesa field office
supervisor utilized this information in making the determination whether these were valid
complaints.

Finally, we believe that the information contained in the written and verbal complaints were
sufficiently specific regarding the name of the mine and the hazardous conditions present to warrant
a timelier inspection. The Mesa field office supervisor’s explanation that it was indeterminable
where the alleged hazardous conditions were located in the mine was not a sufficient rationale for
delaying the investigation of the complaints for as long as six weeks initially, and for failure to
more effectively evaluate and document four subsequent complaint allegations.

3. Protecting Miner Confidentiality

In his court deposition, the Mesa inspector testified that he told ASARCO Mission Mine’s safety
engineer the source of complaints. Hence, the confidentiality of the source was in this case
breached by the MSHA inspector investigating the complaints, in violation of MSHA’s
confidentiality policy and procedure.

MSHA policy and procedure surrounding protection of miner’s confidentiality in registering and
inspecting hazard complaints state:

   “Information received about violations or hazardous conditions should be brought
   to the attention of the mine operator without disclosing the identity of the person(s)
   providing the information.” – MSHA Program Policy Manual, Vol. III 43-1, April
   1996.




                                             7
Inspection Actions

We determined that MSHA’s inspection actions in response to these hazard complaints and
previously identified hazardous conditions at the ASARCO Mission Mine were not conducted in a
prompt and thorough manner.

1. Inspection Actions in Response to Hazard Complaints

As previously stated, the Mesa field office supervisor did not assign an inspector to conduct an
immediate complaint inspection separate from and prior to regularly scheduled inspections.
Instead, he incorporated the written complaint (the first complaint received) into a regular
inspection approximately six weeks (March 1999) after the letter dated January 25, 1999. No
citations were issued as a result of that inspection.

A second regularly scheduled inspection occurred during April 1999, which yielded one citation
pertaining to the allegations. Both the miner’s daughter and the Mesa field office supervisor
recalled that, beginning in May 1999, the Mesa field office supervisor received four additional
phone calls alleging the same hazards. The Mesa field office supervisor did not document these
complaints or take any action. He finally instructed his inspector to investigate the alleged
conditions during a third regular inspection beginning on September 27, 1999, after receiving the
sixth complaint on September 22, 1999. That inspection resulted in one citation for ground
conditions (loose rock).

While there is evidence that the mine inspector, during the March 1999 inspection, inspected areas
that were barricaded, we found no evidence that barricaded areas were subsequently inspected.
During the course of the September 1999 regular inspection, the mine inspector did not enter areas
barricaded off by ASARCO management. Another inspector, who inspected the area during a
fourth regular inspection in November 1999, testified that the barricades implied that the area was
too dangerous for MSHA inspectors to enter, and hence he did not inspect or cite ASARCO. He
stated that he only entered areas of the mine that were actively working at the time of his
inspection. These actions occurred despite the fact that the initial written complaint contained the
allegation that “in the past, management have prepared, closed, chained, or burned off certain
stopes prior to inspectors arrival only for workers to again be sent back to those areas a few days
later to work under poor conditions.”

We concluded, through our own review of inspection documents and through discussion with the
MSHA official who conducted an internal investigation of the events surrounding the accident, that
the inspections conducted in March, April and September, 1999 were not thorough in investigating
the allegations of hazards described in the six hazard complaints.

2. Inspection Actions In Response To Previously Identified Hazardous Conditions

As previously mentioned, in November 1997, MSHA’s Safety and Health Technology Center’s
Roof Control Division issued a report on ground support and mining methods at the ASARCO
Mission Mine. The report identified weaknesses in the areas of scaling, roof bolting and split-set
stabilizers. These issues were similar to some of the same allegations contained in the six hazard

                                                 8
complaints received by the Mesa field office supervisor. We were told by an MSHA official that
the mine file does not contain any information which demonstrates that specific followup actions
were taken by either Mesa field office or the District management regarding the weaknesses
identified in the November 1997 report.

In the two years after the report, and prior to the accident, only three citations related to the
weaknesses identified in the November 1997 report were issued to the ASARCO Mission Mine.
An MSHA internal investigation report dated March 7, 2000, concluded that the recommendations
contained in the November 1997 report were not being followed at the ASARCO Mission Mine.

Additionally, during FY 2000 and after the fatal accident, MSHA conducted numerous inspection
activities and issued a total of seventeen citations that addressed the types of conditions referred to
in both the November 1997 Safety and Health Technology Center Report and the six hazard
complaints that were received. In a report dated April 27, 2000, the MSHA Safety and Health
Technology Center again evaluated the ASARCO Mission Mine, as a follow-up to the January 31,
2000 Mission Mine accident. Many of the same weakness were identified as in the November
1997 report.

Corrective Actions Taken After the Accident

The Mesa field office supervisor was placed on administrative leave and in April 2000, he was
transferred to the Rocky Mountain Coal Mine Health and Safety Division office in a non-
supervisory position. In August, 2000, the inspector who investigated the hazard complaints was
sent a memorandum proposing his dismissal from MSHA for revealing the source of the
complaints.

The Administrator for Metal/Nonmetal and the Assistant Secretary for MSHA visited MSHA’s
Mesa field office in May 2000 to underscore the importance of replying to complaints
immediately. On July 31, 2000, the Assistant Secretary for MSHA issued a memorandum to all
MSHA employees directing them that all complaints were henceforth to be investigated
immediately, irrespective of whether an official complaint was filed, and regardless of the source
of the complaint. At the Mesa field office, the Assistant Secretary’s memorandum was distributed
to all staff and the new procedures verbally reviewed in staff meetings. The field office
supervisors mandated that all complaints received would be documented and investigated. These
practices have continued to be enforced and monitored in the Mesa field office.

                                              ______

In summary, the MSHA Mesa field office supervisor did not effectively follow various MSHA
policies and procedures for at least six hazard complaints received from January through
September 1999. The MSHA Mesa mine inspector violated MSHA policies and procedures by
betraying a miner’s confidentiality. Additionally, the inspection actions in response to these
complaints were not conducted in a prompt and thorough manner. Corrective actions taken by
MSHA are positive steps towards improving hazard complaint handling and inspection policies,
procedures and practices. However, as indicated in the following findings, we identified areas
where additional steps can be taken.

                                                  9
MSHA’s Response to Findings

“The report needs to specifically differentiate between the acts of the field office supervisor
and the acts of the inspector. The report leads one to believe that both the supervisor and the
inspector committed all three of the acts listed on page 5. In fact, the supervisor may have
failed on the first two, but only the inspector failed on the third item. This point needs to be
clarified.”

OIG’s Conclusion

The aforementioned concerns were addressed in Finding A by separating the summaries of the
actions of the supervisor from those of the inspector. The facts remain unchanged.

MSHA’s Response to Findings

“The report does not adequately distinguish between a Section 103(g) hazard complaint and
the more common informal hazard complaints. MSHA’s regulations and policies set forth
procedures for responding to hazard complaints. These include complaints that meet the
requirements of Section 103(g) of the Mine Act and other, more informal complaints.”

OIG’s Conclusion

Our discussions of 103(g) complaints and non-103(g) complaints throughout the report are
accurate and should not be altered.

MSHA’s Response to Findings

“The report consistently refers to six hazard complaints lodged by the family and friends of the
family. In fact, the identity of the person filing the written complaint could not be verified. The
identities of the persons filing the five verbal complaints are known.”

OIG’s Conclusion

We have clarified throughout the body of the report that only the identities of the persons filing
the five verbal complaints have been verified.




                                                10
MSHA’s Response to Findings

“Their (inspectors’) failure to find a significant hazard does not necessarily mean that they
failed to conduct a thorough investigation.”

OIG’s Conclusion

The report clearly states how and why thorough inspections were not conducted, that the
recommendations of the 1997 Technical Report were not adequately considered in inspection
activity, and that the volume of citations issued is adequately separated in the report from the
thoroughness of inspections.

MSHA’s Response to Findings

“We agree that the complaint should have been investigated promptly; however, without
additional information regarding the conditions, location in the mine and miner exposure, the
supervisor could not necessarily conclude that an imminent danger existed. He determined that
the complaints addressed serious issues as evidenced by his instructions to the inspectors.
Under MSHA’s policies, enforcement personnel who receive non-103(g) complaints that can
not be concluded to be imminent danger, have a greater degree of discretion in responding to
the complaints.”

OIG’s Conclusion

We have modified “imminent danger” to “serious hazard” on page 7.

MSHA’s Response to Findings

“The conditions complained of were not the ones that caused the accident. The accident did
not occur in the area referenced in the complaint. The conditions in the stope where the fatal
accident occurred were completely different than the conditions during the time that the
complaints were filed. When the complaints were filed, the area where the accident occurred
was an inactive section . . .”

OIG’s Conclusion

We have changed the wording on page 5 of the “complaints related to some of the very
conditions that resulted in the miner’s death” to “these complaints alleged conditions similar to
those that resulted in the miner’s death.”

All other miscellaneous corrections/adjustments requested in MSHA’s response have been
incorporated into the final report.




                                                11
 Finding B - Hazard Complaint Handling Procedures and Practices Are Not Consistent

Hazard complaint handling procedures and practices lack uniformity. This lack of uniformity is
evidenced in the following areas: (1) hazard complaint intake and documentation procedures
across districts and field offices, (2) complaint analysis as a management tool,
(3) implementation of “best practice” procedures, and (4) nationwide training on hazard complaint
procedures.

Hazard Complaint Intake and Documentation Vary Across Districts and Field Offices

After interviewing all six district managers and their assistant district managers, we concluded that
hazard complaint intake and documentation procedures are not uniform among the six MSHA
Metal/Nonmetal district offices and the different field offices within the districts. For example,
most of the six districts we spoke with use some variation of a hazard complaint intake form;
however, we found that this practice is not uniformly applied. In some instances, instead of using
this intake form, inspectors and field supervisors simply refer to the complaint in their field notes.
Important information (i.e. time, date and location of complaints) may not be captured in these
notes. While MSHA does include a suggested form for the intake of hazard complaints in its
program policy manual, it is not an official MSHA form. Mandatory use of the form by inspectors
would have to be negotiated with the National Council of Field Labor Locals, which represents the
MSHA inspectors.

Another example is the handling of the hazard complaint telephone calls which come in to the
district or field offices. Most of the calls are answered by the district management or field office
supervisor; occasionally the calls are answered by administrative staff, who may not be trained on
complaint handling. Only one district voiced its concern that administrative staff be properly
trained on complaint intake.

Finally, our review disclosed that code-a-phone complaints (the 1-800 number for hazard
complaints received in the National office and forwarded to the districts) may be treated with
more efficiency and thoroughness than complaints directly received by some district and field
offices. Code-a-phone complaints received from the National office are often prioritized and
given immediate inspection attention, and are reported back to the National office via detailed
memorandum and logged into the national code-a-phone database. The code-a-phone complaint
system provides an illustration of a clearly “closed loop” system wherein complaints are tracked
from intake to the results of inspection findings and reported back for tracking purposes. Ideally,
all complaints received at all levels-- whether from a miner at a mine, or by a field or district
office-- should receive the same level of scrutiny, review and documentation as a code-a-phone
complaint.




                                                 12
Complaint Analysis Can Be Utilized As A Management Tool

We believe that MSHA can be more proactive in utilizing complaint analysis to: (a) identify any
relationship between hazard complaints received and previous deficiencies reported at the mine
site, and (b) identify broader areas of complaint activity (i.e., by complaint type, within the mine,
within field offices and/or districts, and across time).

1. Qualitative Analysis of Complaints

The mine files contain all the regular inspections conducted in a mine, and the MSHA inspection
procedures require that enforcement personnel comprehensively review it prior to conducting the
first inspection after receiving the assignment. However, MSHA hazard complaint procedures do
not specify that the mine file should be reviewed by field supervisors or inspectors upon receipt of
a hazard complaint. We believe that hazard complaint procedures should be updated to require
that the mine file be reviewed by field supervisors or inspectors upon receipt of a hazard
complaint.

2. Quantitative Analysis of Complaints

Analyses of complaints are not regularly or consistently conducted by district or field offices.
Our evaluation determined that complaint analysis could identify patterns and trends in complaints
across field offices, particular inspector travel areas, or across years, and within mines, in a
similar fashion as the current practice of monitoring Patterns of Violation (POV). In October
1990, regulations to identify mine operators who meet the criteria for a Pattern of Violation
became effective. These include procedures for initial screening of mines that may be developing
a Pattern of Violations; criteria for determining whether a POV exists at a mine; procedures for
issuance of potential pattern notice and final pattern notice; and, procedures for termination of a
Notice of POV. The pattern of violation analysis allows MSHA to decide which mines warrant
further consideration by the agency, which will be issued potential notices, and allows MSHA to
provide assistance to the districts where requested. A complaint analysis system could similarly
be developed to aid as a management tool in monitoring and tracking complaints.

The development of a complaint analysis system should: 1) capture all complaints; 2) specifically
track or accurately account for complaints; and, 3) follow up on complaints to ensure that
appropriate corrective action has been taken. Examples of analyses which could be conducted
could compare the volume and percentage of citations and enforcement actions which result from
code-a-phone calls to the comparable figures for calls received in various district and field offices
and to evaluate possible reasons for any statistically significant differences. There may also be
merit in analyzing complaints later determined to be “frivolous” to better understand where and
when complaints may emanate.




                                                  13
“Best Practice” Procedures Are Unevenly Implemented

Our review identified a number of promising practices at the district level, which could be
adopted nationwide. Two districts mandate the use of a memorandum format to “narrate” the
entire sequence of events surrounding a complaint, from intake/nature of complaint to inspection,
findings, and resolution. We noted that this practice was effective in documenting the process
from complaint intake to enforcement action. Other districts use a memorandum format
sporadically.

Additionally, our review of documents at the field level suggests that the practice varies vastly,
with differences both between field offices and between different supervisors in one office during
different time periods.

The Southeast District has developed a handbook which systematically details how complaints
should be handled. This 35-page handbook is concise; chapters are clearly indexed for easy
reference and forms and templates (included on computer disks) have been developed for
complaint intake. The handbook catalogues excerpts from MSHA documents which refer to
complaint handling (i.e., Section 103(g), Program Policy Manual, Inspection Manual, Field
Procedures Handbook, the July 2000 Assistant Secretary’s Directive and OSHA/MSHA
interagency agreement). It also includes the district’s own directive on how complaints are to be
handled. The handbook highlights the importance of complaint handling and provides inspectors
with a uniform, readily-available reference guide for complaint handling.

Our review disclosed the need for improved complaint handling forms. For example, as suggested
to us by one field supervisor, M/NM may want to develop a standardized “checklist” of complaint
inspection activity, as an alternative to the current practice of using a Miscellaneous Inspection
checklist form.

Relatedly, MSHA should look to other customer complaint systems such as “911" and the IRS
customer complaint handling systems as examples of comprehensive systems which emphasize the
efficient handling of customer complaints through the identification, management, tracking and
analysis of complaints.

Nationwide Training on Hazard Complaint Procedures Is Inadequate

Our review determined that the area of complaint handling is inadequately covered in both new
inspector and refresher training. Training for new inspectors is held at the National Mine Health
and Safety Academy in Beckley, West Virginia, for a total of twenty-four weeks. The Mine Act is
covered in detail in the three-day course, “Law, Regulation and Policy,” which includes a module
on Complaint Handling. The curriculum for the course, which emphasizes the authority of the
inspector, has not been updated for over three years. The module on Complaint Handling within
that curriculum focuses on the handling of Section 103(g)(1) and (2) complaints, and has not been
updated to reflect the Assistant Secretary’s Directive of July 31, 2000. The complaint
handling module comprises two pages out of a forty-five page training manual, and includes
approximately half an hour of classroom instruction and discussion.

                                                14
Our evaluation determined that training in complaint handling, including the written training
module procedures, does not sufficiently address procedural issues of the evaluation,
documentation and investigation of complaints. In particular, little or no emphasis is given to
those complaints which may fall outside of 103(g). The training should be broadened to
encompass these broader areas. Some of the field inspectors we spoke with suggested that
inspectors seasoned in complaint handling be brought in to assist in that portion of the training,
possibly through conducting presentations in the classroom setting. Refresher training for
experienced miners, held every two years, was also reported to be lacking in addressing complaint
handling. Both inspectors and field supervisors we interviewed stated the need for more refresher
training on hazard complaint handling.

In summary, we found that hazard complaint handling procedures lack uniformity across districts
and field offices. Increased uniformity will result in a more efficient handling of hazard
complaints through the systematic evaluation, management, tracking and analysis of complaints.
RECOMMENDATIONS:

We recommend that MSHA take the following actions:

    (1) standardize and mandate the use of hazardous complaint handling intake, inspection and
         reporting forms.
    (2) nationally adopt “best practices” currently used in certain districts.
    (3) update and implement hazard complaint procedures requiring that, where practicable,
         the mine file be reviewed by field supervisors or inspectors after receipt of a hazard
         complaint. An exception can be made in the event that a complaint is received at the
         mine.
    (4) develop a complaint analysis system to:
         a) capture all complaints;
         b) specifically track or accurately account for complaints; and,
         c) follow up on complaints to ensure that appropriate corrective action has been taken.
    (5) further develop and update classroom training for new mine inspectors, and implement
         hazard complaint handling refresher courses for all journeymen mine inspectors, and for
         all MSHA personnel who receive hazard complaints.

MSHA’s Response to Recommendations

(1) “M/NM is currently developing standardized forms for the receipt, handling, and
    disposition of hazard complaints. Where possible, standard forms will be used to record the
    receipt of hazard complaints, however, because of the nature of our work, many field
    situations will preclude the use of the forms. Once the inspector returns to the office,
    however, the standard forms will be completed.”

(2) “A handbook, the Hazard Complaint Processing Handbook (HCPH), will be created so that
    M/NM management personnel and inspectors can address hazard complaints in a uniform
    fashion.”

                                               15
(3) “This recommendation will be incorporated into the HCPH, see Recommendation #2. This
    recommendation, however, can not be mandatory because many complaints are received in
    the field and access to the files is impractical.”

(4) “M/NM is currently developing a system that tracks the complaint from initial notification
    to final resolution and ultimate closing of the complaint.”

(5) “M/NM’s existing program will be modified to incorporate new procedures and database
    use. The training will deal with processing and investigating hazard complaints, and
    bringing the hazard complaints to final resolution. New mine inspectors will be given the
    training as part of the new inspector training at the Mine Academy; journeymen inspectors
    will be trained at their next scheduled journeymen training session; and appropriate
    administrative personnel will be trained.”

OIG’s Conclusion

We concur with the proposed corrective actions and consider recommendations 1 through 5
resolved. The recommendations will be closed after those corrective actions are completed. In
that regard, please submit a detailed action plan and timetable for each recommendation by no
later than May 31, 2001.




                                              16
 Finding C - MSHA’s Policies and Guidelines on the Enforcement of the Mine Safety Act
             Need to Be Updated

Differences exist between the Mine Act and various MSHA policies and guidelines which
interpret the Act and its accompanying regulations. These inconsistencies result in complaint
handling practices frequently differing according to the interpretations of the field office
supervisors and mine inspectors.

Differences Exist Between Various MSHA Policies and Guidelines

As depicted earlier in Finding A, the Mine Act specifies that complaints coming from a miner or
representative of miners (registered with the district, representing at least 2 miners) are in
accordance with Section 103(g) of the Mine Act. However, various MSHA guidelines differ from
the definition contained in the Mine Act, each other, and the latest directive, dated July 31, 2000,
issued by MSHA’s Assistant Secretary. For example, MSHA’s Program Policy Manual extends
valid complaints as follows:

       “A different situation exists when an inspector receives information about
       violations or hazards in a mine, and the information is given in an informal manner
       that does not meet the requirements of Sections 103(g)(1) or 103(g)(2) in that the
       notice is not in writing. In these situations, the inspector receiving the information
       must evaluate and determine a course of action, which in some cases may result in
       an immediate inspection, but in other cases may not.” – MSHA Program Policy
       Manual, Vol. III Part 43-1, dated April 1996.

In comparison, MSHA’s Field Reports Procedures Handbook, limits consideration of hazard
complaints to those that are filed by a representative of miners, etc.

   “Hazard complaints are filed by a representative of miners or union officials or any
   miner who has reasonable grounds to believe that a violation of the Act or of a
   mandatory health or safety standards exists or that an imminent danger exists.” –
   MSHA Field Reports Procedures Handbook, p. 9-1, dated February1989.

The above excerpt is incongruous with the broader interpretation of the Policy Program Manual, as
well as the spirit and intent of an earlier version of MSHA’s publication, “A Guide to Miners’
Rights,” which stipulated that:

   “At any time any person may, and is encouraged to, notify MSHA of any violation of
   the Act or safety or health standards, or of an imminent danger.” – A Guide to
   Miners’ Rights, p. 8, reprinted 1989.

It should be noted that the FY 2000 update to the “Guide to Miners’ Rights,” deletes the above
section and, instead limits hazard complaints to miners and miner’s representatives.

Notwithstanding that differences exist between the various guidelines listed above, the

                                                17
inconsistency continues with the Assistant Secretary’s July 2000 directive issued to all MSHA
employees stating:

    “No matter who makes the complaint or how we receive it, any complaint about a safety
    or health concern in MSHA’s jurisdiction must be taken seriously. If the complainant
    provides enough information to identify the location and the hazard of concern, it must
    be promptly investigated.... A complaint can come from a miner, family member, or any
    concerned person...If someone informs you that a specific hazard exists in a specific
    mine, then that should be treated as a complaint .” – July 31, 2000 memorandum of the
    Assistant Secretary for MSHA.

We believe that the July 2000 directive, while sweeping in its intent, could be further developed in
procedural terms. The investigation of complaints outside of the letter of the Mine Act’s sections
103(g)(1) and (2) is very important, and various MSHA policies and guidelines should be updated
to reflect the latest directive. Various documents including the Program Policy Manual, the Field
Reports Procedures Handbook, and the Inspection Handbook should be updated to reflect the July
2000 directive.

Furthermore, we identified certain additional written guidelines issued by the Southeast District
which we believe should also be considered when updating the various MSHA guidelines. For
example:

    “All verbal complaints ‘shall be reduced to writing’ by the MSHA employee receiving
    the complaint . . . A verbal complaint information form is to be completed when a
    telephone complaint is received.” – Hazard Complaints Conditions Handbook, Southeast
    District, Section 1, page 1, FY 2000.

The Southeast District also states its prioritization of verbal complaints as requiring equal
attention to written complaints:

    “Telephone and verbal complaints are general notices of alleged violations
    and are given the same attention and consideration as written complaints.” –
    Hazard Complaints Conditions Handbook, Southeast District, Section V.f, page
    4, FY 2000.

No comparable language on documentation or prioritization of verbal complaints exists in
National-level policies and guidelines. We believe that all existing MSHA policies and
guidelines should be reviewed to ensure consistency.




                                                 18
Some Complaints Are Not Covered by the Mine Safety Act

According to several MSHA district managers, the July 2000 directive is now literally
interpreted, leaving field supervisors little room for discretion about: (1) complaints in which
MSHA’s jurisdiction is unclear; and, (2) complaints which can be established as “frivolous” in
nature. Currently, there is no formal system for field supervisors to confer with district
management in deciding, on a case-by-case basis, which complaints do not fall within MSHA’s
jurisdiction or are frivolous in nature.

(1) Regarding unclear jurisdiction, district managers and field supervisors now immediately
inspect environmental complaints from neighborhoods adjacent to mines, i.e. excessive dust,
noise, and explosion vibrations. Several district managers stated that they do not have the
discretion or adequate guidelines to refer the call out to a more appropriate agency. While an
existing OSHA-MSHA interagency agreement outlines enforcement guidelines on unsafe and
unhealthy working conditions, OSHA’s jurisdiction does not extend to environmental complaints
outside of work areas.

(2) The July 2000 directive does not differentiate between “frivolous” complaints, which are now
responded to immediately and not clearly distinguished from imminent danger calls. Some
managers and field inspectors viewed the investigation of frivolous and even some non-imminent
danger complaints as taking away from regular inspection responsibilities; yet, a literal
interpretation of the July 2000 directive does not permit a distinction in the prioritization of such
complaints.

We believe that guidelines should be developed to formally document district management’s
approval or disapproval of field offices’ proposed actions surrounding environmental complaints
outside of MSHA’s jurisdiction and complaints deemed frivolous by both field and district offices.


MSHA Lacks a Policy on the Incorporation of Complaints into Regular Inspections

Currently, MSHA does not have a clear policy on the practice of “folding” hazard complaint
inspections into regular inspections. Several district supervisors stated that, unless a miner cites a
complaint during the course of a regular inspection, all written and verbal hazard complaints are to
be investigated separately and issued a separate event number in MSHA’s Management
Information Systems. However, one district manager and his assistant voiced the concern about
miner confidentiality, particularly in small mines. They felt that, in order to preserve such
confidentiality, the option to fold hazard complaints into regular inspections was a discretionary
judgement which should not be unilaterally removed from MSHA policy.

The issues of timing of inspection activity and of coding complaints are also involved. If a hazard
complaint about a mine comes directly to a district or field office shortly before a regularly
scheduled inspection at that mine, it may be prudent to send an inspector out on the regular
inspection and to simultaneously investigate the complaint. We believe MSHA should explore
developing a procedure wherein hazard complaints, in exceptional cases and with the consultation
of district supervisors, can be permitted to be folded into regular inspections. This procedure

                                                 19
should allow for both documentation and coding of complaint activity to identify, track and
monitor complaints.

We believe that differences exist between the Mine Safety Act and the various MSHA guidelines
on hazard complaint handling. A review and update of existing MSHA guidelines that are
consistent with the July 2000 directive will be a positive step in assuring that all hazard
complaints are properly handled.

 RECOMMENDATIONS:

 We recommend that MSHA take the following actions:

     (6) reconcile inconsistent language on complaint handling found between the various MSHA
         guidelines in accordance with the July 2000 directive.
     (7) develop guidelines for district management’s approval or disapproval of proposed
         actions on complaints outside of MSHA’s jurisdiction and complaints deemed frivolous.

     (8) establish a policy on whether and when to incorporate hazard complaints into regular
         inspections.


MSHA’s Response to Recommendations

(6) “ . . . Any inconsistencies in MSHA’s Program Policy Manual, MSHA’s Inspection
    Procedures Handbook, and Internet postings will be reconciled in the HCPH.”

(7) “This procedure is already in place for the code-a-phone complaints handled by the
    headquarters office and will be incorporated into the HCPH referred to earlier. Guidelines
    will be developed and incorporated into the HCPH for dealing with trivial hazard
    complaints.”

(8) “M/NM will establish a procedure on whether and when to incorporate hazard complaints
    into regular inspections.”

OIG’s Conclusion

We concur with the proposed corrective actions and consider recommendations 6 through 8
resolved. The recommendations will be closed after those corrective actions are completed. In
that regard, please submit a detailed action plan and timetable for each recommendation by no
later than May 31, 2001.




                                                20
                        APPENDIX A

 July 31, 2000 Memorandum from MSHA’s Assistant Secretary to
all MSHA Employees Regarding Complaint Handling




                             21
   APPENDIX B

Agency Response




       23
